RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 20A96
DANVILLE CHRISTIAN ACADEMY, INC., AND COMMONWEALTH OF KENTUCKY, ex rel.
ATTORNEY GENERAL DANIEL CAMERON,
Applicants,
v.
ANDREW BESHEAR, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF KENTUCKY,
Respondent.
As required by Supreme Court Rule 33.1(h), I, Gordon D. Todd, certify that
the Motion for Leave to File Brief Amicus Curiae in Support of Applicants by
Samuel A. Fryer Yavneh Academy, Montebello Christian School, and Saint Joseph
Academy in the foregoing case contains 625 words, and the Brief Amicus Curiae in
Support of Applicants by Samuel A. Fryer Yavneh Academy, Montebello Christian
School, and Saint Joseph Academy in the foregoing case contains 3,863 words,
excluding the parts that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 4, 2020.
/s/ Gordon D. Todd
GORDON D. TODD
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

